The Department of Justice Office of the Inspector General (OIG) today released a review of the
Drug Enforcement Administration’s (DEA) process to adjudicate administrative actions against
businesses and professionals that register with the DEA to handle controlled substances. The
OIG report found that the DEA’s adjudicative process comports with applicable laws and
regulations but the overall time it takes the DEA to adjudicate registrant actions is very
lengthy. We also found that DEA generally does not have timeliness standards in place and,
where it does, the agency consistently failed to meet them.

The Controlled Substances Act of 1970 requires registration with the DEA by businesses that
import, export, manufacture, or distribute controlled substances; health care practitioners
entitled to dispense, administer, or prescribe controlled pharmaceuticals; and pharmacies
entitled to fill prescriptions. If the DEA finds that a registrant or applicant has violated the law,
it may issue an order to show cause why registration should not be revoked, suspended, or
denied. If the violation poses an imminent threat to public health or safety, the DEA may issue
an immediate suspension order, which deprives the registrant of the right to deal in controlled
substances immediately. Orders to show cause and immediate suspension orders are
collectively known as “registrant actions.” After receiving notice of a registrant action, the
registrant may either allow the DEA Administrator to issue a final decision or request a
hearing. If the registrant requests a hearing, a DEA Administrative Law Judge (ALJ) will issue a
recommended decision to the Administrator. The Administrator then is responsible for issuing a
final decision by adopting, modifying, or rejecting the ALJ’s recommended decision.

The OIG’s review found that from 2008 through 2012, the time it took the DEA to reach a final
adjudication of registrant actions was very lengthy. For example, the average time for the DEA
to issue a final decision for immediate suspension orders ranged from 647 days in 2008 to 459
days in 2012, substantially above the DEA’s 180-day goal for such adjudications. For all
registrant actions – including both orders to show cause and immediate suspension orders – the
average number of days the DEA took to make a final decision ranged from a high of 730 days
in 2009 to 366 days in 2012. We also found that DEA does not have timeliness standards
except for a 180-day goal for immediate suspension orders, and it consistently has failed to
meet that internal standard. Delays in the adjudication process can create risks to public health
and safety, for example, by allowing noncompliant registrants to operate their business or
practice while the registrant action is being adjudicated, and can also affect the livelihoods of
registrants capable of demonstrating their compliance.

The review identified several factors that may affect the timeliness of final decisions, including
the lack of timeliness standards for all kinds of registrant actions, variations in how ALJs
manage their caseloads, and a lack of guidance for DEA attorneys on preparing and submitting
case summaries and related materials to the Office of the Administrator for adjudications made
solely by the Administrator. We also found that the DEA has never analyzed the timeliness of
its adjudication of registrant actions, and that due to its system for tracking adjudications, the
DEA cannot effectively determine the time it takes to adjudicate each registrant action through
final decision. The OIG’s review did not assess the substantive bases for the DEA’s
decisions. However, the DEA has recently undertaken efforts to improve timeliness and to
facilitate the adjudication of registrant actions.

The OIG made three recommendations to improve the DEA’s ability to effectively and efficiently
adjudicate all registrant actions in a timely manner and mitigate the potential adverse effects of
delays on the public, registrants, and the DEA.        The DEA concurred with all three
recommendations.

The report released today can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2014/e1403.pdf.
